OFFICE OF INSPECTOR GENERAL
 For the Millennium Challenge Corporation



AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION’S
FINANCIAL STATEMENTS, INTERNAL
CONTROLS, AND COMPLIANCE FOR
THE PERIOD ENDING
SEPTEMBER 30, 2011 AND 2010

AUDIT REPORT NO. M-000-12-001-C
November 15, 2011


WASHINGTON, DC
Office of Inspector General
for the Millennium Challenge Corporation

November 15, 2011

Mr. Daniel Yohannes
Chief Executive Officer
Millennium Challenge Corporation
875 15th Street, NW
Washington, DC 20005-2203



Subject:            Audit of the Millennium Challenge Corporation’s Financial Statements,
                    Internal Controls, and Compliance for the Period Ending September 30,
                    2011 and 2010

Dear Mr. Yohannes,

Enclosed is Williams, Adley & Company-DC, LLP’s final report on the subject audit. The
Office of Inspector General (OIG) contracted with the independent certified public
accounting firm of Williams, Adley & Company-DC, LLP to audit the financial statements
of the Millennium Challenge Corporation (MCC) for the period ending September 30,
2011. The contract required that the audit be performed in accordance with United
States Generally Accepted Government Auditing Standards, Office of Management and
Budget (OMB) Bulletin 07-04 as amended, Audit Requirements for Federal Financial
Statements, and the GAO/PCIE Financial Audit Manual.

The Independent Auditors expressed an unqualified opinion on MCC’s FY 2011
Financial Statements. The report stated that the financial statements referred to above
present fairly, in all material respects, the net position of MCC as of September 30,
2011, and its net cost, changes in net position and budgetary resources for the fiscal
year then ended, in conformity with accounting principles generally accepted in the
United States of America. MCC’s financial statements as of September 30, 2010 were
audited by other auditors.

In its audit of MCC’s fiscal year 2011 financial statements the auditors’ identified two
issues that were considered material weaknesses and two other issues that were
considered significant deficiencies. These matters are listed below and are detailed in
the auditor’s report.

Millennium Challenge Corporation
1401 H Street N.W.
Suite 770
Washington, DC 20005
www.usaid.gov/oig
A deficiency in internal control exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned
functions, to prevent, or detect and correct misstatements on a timely basis. A material
weakness is a deficiency, or combination of deficiencies, in internal control, such that
there is a reasonable possibility that a material misstatement of an entity's financial
statements will not be prevented, or detected and corrected on a timely basis.

Material Weaknesses

           MCC’s Financial Reporting Process Needs Improvement

           MCC’s Process for Calculating and Reporting Accrued Expenses, Retentions,
           and Advances Needs Improvement


A significant deficiency is a deficiency, or a combination of deficiencies, in internal
control that is less severe than a material weakness, yet important enough to merit
attention by those charged with governance.

Significant Deficiencies

           MCA Required Documentation, Including Audit Reports, Quarterly
           Disbursement Requests and Compact Closure Plans Are Not Submitted,
           Reviewed, and/or Approved In A Timely Manner

           Reconciling Fund Balance with Treasury (USAID)

The auditors did not note any instances of material non-compliance with laws and
regulations.

In carrying out its oversight responsibilities, the OIG reviewed Williams, Adley &
Company-DC, LLP’s audit reports and documentation. This review, as differentiated
from an audit in accordance with U.S. Generally Accepted Government Auditing
Standards was not intended to enable the OIG to express, and we do not express,
opinions on MCC’s financial statements, or internal control; or on MCC’s compliance
with other laws and regulations. Williams, Adley & Company-DC, LLP is responsible for
the attached auditor’s report, dated November 10, 2011, and the conclusions expressed
in the report. However, our review disclosed no instances where Williams, Adley &
Company-DC, LLP did not comply, in all material respects, with applicable standards.

To address the material weaknesses and significant deficiencies in internal controls
reported by Williams, Adley & Company-DC, LLP, we are listing below the findings with
fifteen (15) recommendations to MCC’s management:

Material Weaknesses

MCC’s Financial Reporting Process Needs Improvement

Recommendations: We recommend that MCC‘s Administration and Finance (A& F)
Division:

                                              2
       1. Develop and document a financial reporting process that reduces the
          likelihood of errors, inconsistencies, and inaccuracies and results in
          efficiencies and effectiveness, consistency, and accuracy of financial data.

       2. Enhance the quality control process to detect errors or improper closeout of
          accounts through additional check totals, training and involvement of
          additional A&F staff members.


MCC’s Process for Calculating and Reporting Accrued Expenses, Retentions, and
Advances Needs Improvement

Recommendations: We recommend that MCC:

       3. Develop an appropriate MCC data store of MCA expense information as
          required by TR-12.

       4. In the interim, perform similar data validation employed at year end for each
          quarter going forward.

       5. Prepare a MCC developed estimate for accrued expenses based upon
          statistical modeling or an alternative that is based on MCC obtained data.

       6. Record advances in accordance with generally accepted accounting
          principles.

       7. Develop and implement a periodic reconciliation process for advances.

       8. Develop and implement a quarterly certification for advance transactions
          processed by the MCAs as part of the quarterly data call submission.

       9. Modify MCA audit requirements to include testing and reporting of advances
          transactions.

Significant Deficiencies

MCA Required Documentation, Including Audit Reports, Quarterly Disbursement
Requests and Compact Closure Plans Are Not Submitted, Reviewed, and/or
Approved In A Timely Manner

Recommendations: We recommend that MCC’s Administration & Finance Division and
Department of Compact Operations:

       10. Collaborate with the OIG and provide the MCA auditors with a document
           discussing the issues/errors that have led to delays in processing and
           clearing audit plans and audit reports in a timely manner.

       11. Provide comprehensive guidance to MCAs regarding the procurement of
           firms to perform the Fund Accountability Statement audits with a focus on
           timeliness and completeness of the audit deliverables and potential
           penalties.

                                           3
       12. Continue to collaborate with the OIG to improve communications regarding
           audit status and solutions to moving individual audits to completion on a
           timely basis.

       13. Reiterate the program requirements that Quarterly Disbursement Requests
           are to be accurate and complete and submitted within the required timelines
           and provide them with information about issues/things that cause delays.

       14. Review the current guidelines for submission of Compact Closure Plans to
           determine if the timeline is reasonable and realistic. In addition, the
           Department of Compact Operations should work closely with MCAs to
           develop and compile a compact closure plan and resolve any outstanding
           items in advance of compact closure.

Reconciling Fund Balance with Treasury (USAID)

Recommendation: We recommend that MCC’s Administration and Finance Division:

       15. Continue to follow USAID’s progress toward elimination of cash balance
           differences between USAID and Treasury and timely clearing suspense
           account items in order to monitor MCC’s risk of potential misstatements.

In finalizing the report, Williams, Adley & Company-DC, LLP evaluated MCC's response
to the report and acknowledged that management decisions have been reached on all of
the recommendations. Williams, Adley & Company-DC, LLP stated that MCC should
provide OIG with a timeline to address the recommendations and report to the OIG when
final action has been taken on the recommendations.

Subsequently, MCC provided target dates for when the final actions would be
completed. Thus, OIG agrees with MCC’s management decisions for all 15
recommendations. Please inform us when final action has been taken.

The OIG appreciates the cooperation and courtesies extended to our staff and to the
staff of Williams, Adley during the audit. Please contact Mark Norman at
(202) 216-6961, if you have any questions concerning this report.


                                                  Sincerely,

                                                     /s/
                                                  Alvin A. Brown
                                                  Assistant Inspector General
                                                  Millennium Challenge Corporation




                                           4
MILLENNIUM CHALLENGE CORPORATION


              FINANCIAL STATEMENTS

  FOR THE YEARS ENDED SEPTEMBER 30, 2011 AND 2010

   AND INDEPENDENT AUDITORS’ REPORTS THEREON
                           TABLE OF CONTENTS



                                                         Page

Independent Auditors’ Report
   Opinion on the Financial Statements                    2

  Independent Auditors’ Report on Internal Control        4

   Independent Auditors’ Report on Compliance            17

   Status of Prior Year Findings – Appendix A            18

   Management Comments and Our Evaluation – Appendix B   21

   Management Comments – Appendix C                      23

Financial Section                                        25

Balance Sheet                                             26

Statement of Budgetary Resources                         27

Statement of Net Cost                                    28

Statements of Operations and Changes in Net Position     29

Notes to Financial Statements                            30
                                       Independent Auditors’ Report


Inspector General
United States Agency for International Development

Board of Directors
Millennium Challenge Corporation


We have audited the accompanying Balance Sheet of the Millennium Challenge Corporation (MCC) as of
September 30, 2011, and the related Statements of Net Cost, Changes in Net Position and Budgetary
Resources for the fiscal year then ended (hereinafter referred to as financial statements). These
financial statements are the responsibility of MCC management. Our responsibility is to express an
opinion on these financial statements based on our audit. The financial statements of MCC as of
September 30, 2010 were audited by other auditors whose qualified report dated November 15, 2010,
included an explanatory paragraph that described that the process for compiling accruals was not
comprehensive enough to record accruals for material amounts of current‐year expenses not paid or
invoiced until the subsequent period. Fiscal year 2009 expenses were understated by accrual amounts,
and FY 2010 expenses were overstated by those same amounts.

We conducted our audit in accordance with auditing standards generally accepted in the United States
of America and standards applicable to financial statement audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States, and the Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards require that we plan and perform the audit to obtain reasonable assurance that the
financial statements are free of material misstatement. An audit includes consideration of internal
control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of MCC’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements.
An audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that our
audit provides a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the net
position of MCC as of September 30, 2011, and its net cost, changes in net position and budgetary
resources for the fiscal year then ended, in conformity with accounting principles generally accepted in
the United States of America.

The information in the Management’s Discussion and Analysis section is not a required part of the
financial statements, but is supplementary information required by accounting principles generally
accepted in the United States of America. We have applied certain limited procedures, which consisted
principally of inquiries of management regarding measurement and presentation of this information.
However, we did not audit this information and, accordingly, we express no opinion on it.


                                       WILLIAMS, ADLEY & COMPANY-DC, LLP
                             Certified Public Accountants / Management Consultants
         1030 15th Street, NW, Suite 350 W • Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371-9161
                                               www.williamsadley.com
The introductory information and performance information are presented for additional analysis and
are not a required part of the financial statements. Such information has been subjected to the auditing
procedures applied in the audit of the financial statements and, accordingly, we express no opinion on
them.

In accordance with Government Auditing Standards, we have also issued our reports dated November
10, 2011, on our consideration of MCC’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and other matters. The purpose of
those reports is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in
accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audit.

Williams, Adley & Company – DC, LLP /s/

Washington, D.C.
November 10, 2011




                                                   3
                            Independent Auditors’ Report on Internal Control


Inspector General
United States Agency for International Development

Board of Directors
Millennium Challenge Corporation

We have audited the Principal Statements (hereinafter referred to as the financial statements) of the
Millennium Challenge Corporation (MCC) as of and for the fiscal year (FY) ended September 30, 2011,
and have issued our report thereon dated November 10, 2011. We conducted our audit in accordance
with auditing standards generally accepted in the United States of America; standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States; and Office of Management and Budget (OMB) audit guidance.

MCC’s management is responsible for establishing and maintaining effective internal control. In
planning and performing our audits, we considered MCC’s internal control over financial reporting by
obtaining an understanding of MCC’s internal controls, determining whether internal controls had been
placed in operation, assessing control risk, and performing tests of controls as a basis for designing our
audit procedures for the purpose of expressing our opinion on the financial statements but not to
express an opinion on the effectiveness of MCC’s internal control over financial reporting. Accordingly
we do not express an opinion on the effectiveness of MCC’s internal control over financial reporting.
We limited our internal control testing to those controls necessary to achieve the objectives described in
the OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended. We did
not test all internal controls relevant to operating objectives broadly defined by the Federal Managers’
Financial Integrity Act of 1982 (FMFIA) such as those controls relevant to ensuring efficient operations.

Our consideration of internal control over financial reporting was for the limited purpose described in
the preceding paragraph and would not necessarily identify all deficiencies in the internal control over
financial reporting that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination of
control deficiencies that adversely affects MCC’s ability to initiate, authorize, record, process, or report
financial data reliably in accordance with accounting principles generally accepted in the United States
of America such that there is more than a remote likelihood that a misstatement of MCC’s principal
financial statements that is more than inconsequential will not be prevented or detected by MCC’s
internal control. A material weakness is a significant deficiency, or combination of significant
deficiencies, that results in more than a remote likelihood that a material misstatement of the financial
statements will not be prevented or detected.


                                       WILLIAMS, ADLEY & COMPANY-DC, LLP
                             Certified Public Accountants / Management Consultants
         1030 15th Street, NW, Suite 350 W • Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371-9161
                                               www.williamsadley.com
As a result of our testing, we consider the findings included in Schedule A to be material weaknesses and
those in Schedule B to be a significant deficiencies. The material weaknesses noted in Schedule A were
not reported as material weaknesses by MCC in their FMFIA report. We noted other non-reportable
matters involving internal control and its operations that we reported to management in a separate
letter.

MCC’s management comments are in an appendix to this report. We did not audit MCC’s response and
accordingly, we provide no opinion on it.

This report is intended solely for the information and use of management of the Millennium Challenge
Corporation and its Office of Inspector General, Office of Management and Budget, and Congress and is
not intended to be and should not be used by anyone other than these specified parties.

Williams, Adley & Company – DC, LLP /s/

Washington, D.C.
November 10, 2011




                                                   5
 Schedule A – Material Weaknesses

I.   MCC’s Financial Reporting Process Needs Improvement

 MCC’s financial reporting process needs improvement. In the draft annual financial statements
 provided to the auditors there were errors amounting to $180 million that were identified by
 the auditors and reported to MCC for correction. The June 2011 financial statements included
 an error of $596 million that MCC found prior to our review that required the financial
 statements to be reissued. MCC’s heavy reliance on the manual compilation of financial reports,
 staffing limitations and tight compilation and reporting timelines resulted in an ineffective
 quality assurance process and thus the errors that were found.

 The quarterly and annual financial reporting process is highly manual and requires several
 outside entities to provide materially significant financial information on a timely basis in order
 to prepare MCC’s internal and external reports. Currently the time required to compile the
 financial statements from generation of the initial trial balance from the accounting system,
 receipt, review and recording of outside data, and the preparation and posting of adjusting
 entries significantly shortens the time available for the quality assurance process needed to
 ensure that material errors do not occur.

 A summary of the errors we found in our testing of MCC’s financial reporting is as follows:

         We noted an incorrect Fund Balance with Treasury balance on the Balance Sheet at June
         30, 2011 and thus the financial statements did not total correctly. MCC reported $5,681
         million but later revised that amount to $6,278 million, a difference of $596 million, due
         to a formula error in the Excel worksheet that MCC informed us of prior to our review of
         those statements.

         In the original submission of the September 30, 2011 draft financial statements, on the
         Statements of Changes in Net Position, the total financing sources for FY 2010 was
         overstated by $50 million and the unexpended appropriations beginning balance as
         adjusted was overstated by $130 million. We reported these errors to MCC who
         indicated that transposition errors had occurred.

 In an effort to address various issues noted in prior year audits, including challenges with
 financial reporting, MCC established the Financial Integrity Task Force in FY 2011 that resulted in
 additional training and quality control tools for the Department of Administration and Finance
 (A&F).

 OMB Circular A-123, Management’s Responsibility for Internal Control states:
   “Internal control over financial reporting is a process designed to provide reasonable
   assurance regarding the reliability of financial reporting. Reliability of financial reporting
   means that management can reasonably make the following assertions:
   - All reported transactions actually occurred during the reporting period and all assets and
       liabilities exist as of the reporting date (existence and occurrence);
   - All assets, liabilities, and transactions that should be reported have been included and no
       unauthorized transactions or balances are included (completeness);


                                                 6
       -   All assets are legally owned by the agency and all liabilities are legal obligations of the
           agency (rights and obligations);
       -   All assets and liabilities have been properly valued, and where applicable, all costs have
           been properly allocated (valuation);
       -   The financial report is presented in the proper form and any required disclosures are
           present (presentation and disclosure);
       -   The transactions are in compliance with applicable laws and regulations (compliance):
       -   All assets have been safeguarded against fraud and abuse; and
       -   Documentation for internal control, all transactions, and other significant events is
           readily available for examination.”

  MCC’s Financial Reporting, Financial Audits, and Agency Financial Reports Policy and Procedure
  Manual, section 8.1 states:
     “Step 2: The Division of Finance, DCFO/ACFO, reviews, validates and conducts quality
     assurance on financial statements. If errors are found, the Division of Finance staff make
     necessary changes and reissue the revised financial statement package.”

  MCC's unqualified opinion was obtained through "heroic efforts" because the financial reporting
  by MCC requires extensive time and effort from MCC personnel. MCC's heavy reliance on
  manual compilation of financial reports and validation of the underlying data show that
  improvements are needed to ensure that systems, processes, and controls routinely generate
  reliable, useful, and timely financial information. This manual process and tight timelines
  reduces the time for quality control and thus increases the likelihood of misstatement due to
  human error. MCC does not currently have an effective review process in place to ensure
  accurate financial reporting. As a result, material errors in the financial statements could
  mislead readers as to the financial activities of MCC.

  Recommendations: We recommend that MCC A&F:
  1. Develop and document a financial reporting process that reduces the likelihood of errors,
     inconsistencies, and inaccuracies and results in efficiencies and effectiveness, consistency,
     and accuracy of financial data.

  2.    Enhance the quality control process to detect errors or improper closeout of accounts
       through additional check totals, training and involvement of additional A&F staff members.



II.    Controls over MCC Accrued Expenses, Retentions, and Advances Need Improvement

  The controls over the accrued expenses, retentions, and advances need improvement. MCC
  accrued expenses and retentions related to the Millennium Challenge Accounts (MCAs) are
  approximately $276 million or 92% of the accounts payable recorded and reported by MCC
  quarterly. MCA advances are approximately $185 million or 93% of the advances reported on
  MCC’s financial statements. These balances are reported in the financial statements based
  upon a quarterly data call reporting process that began at the end of the prior fiscal year.

  During FY 2011 in response to prior year audit recommendations, MCC provided quarterly
  instructions and templates to the MCAs regarding the advances, accruals, and retentions data


                                                   7
call reporting. However, the instructions and templates changed between the first and second
quarters of FY 2011.

Issues with advances have been noted in past financial statement audits as material
misstatements that required a restatement of the FY 2009 financial statements and material
audit adjustments to the FY 2010 financial statements. Initially, MCC records all advance
transactions in the general ledger as an expense. Using the quarterly data call reporting
workaround MCC records a journal voucher to move outstanding advances from expenses to
advances.

Until the fourth quarter there was no other MCC review to ensure that these material
transactions were accurate. Additionally, the timelines used for the majority of the fiscal year
for MCA quarterly data call submissions were tight leaving little time for reconciliation and
follow-up with the MCA.

Also, during FY 2011 MCC implemented Federal Accounting Standards Advisory Board (FASAB)
Technical Release (TR) 12 for estimating accruals for its grant program, i.e. Compacts. Because
MCC does not have the historical data store to accurately estimate accrued expenses, MCC
relied on the MCAs to act as a “proxy” to provide accurate, reliable, and complete data to
produce the estimated accrued expense balances. During most of the year minimal quality
assurance checks were performed on the MCA data before recording in the general ledger and
quarterly financial statements. In the fourth quarter, however, the level of quality assurance
performed by MCC changed and expanded significantly.

As a result of MCC’s validation of prior data calls and special reports from MCA auditors, we
noted that the quarterly data call reporting on which MCC was placing its reliance contained
misstatements. Further, several MCAs did not have internally developed processes to ensure
reliable, accurate, complete and consistent reporting to MCC. Due to the high level of audit risk,
we performed on-site testing of the data call reporting for accruals, advances, and retentions at
six MCAs covering the first, second, and third quarters. Although our primary focus was FY 2011,
we did perform tests of the September 2010 balances given the prior year issues noted in the FY
2010 auditors’ report. The results of our audit indicated errors in the data call information for
advances, retentions, and accruals.

        We noted errors in the MCAs’ data call reporting from the first quarter through the third
        quarter.
        We noted accrual errors at all six MCAs. Most errors involved work in process
        estimates. The errors caused misstatements ranging from $227 thousand to $10 million.
        Also, several accruals in each quarterly data call lacked supporting documentation or
        were duplicates.
        Five of six MCAs had problems in properly reporting retentions quarterly. Errors in
        retentions ranged from $2 thousand to $3 million. We also noted a lack of supporting
        documentation and inadequate controls over compliance with contract requirements
        related to retentions.
        We noted that advances ranging from $66 thousand to $939 thousand were not
        included in the data calls during the three quarters.
        We noted that two of six MCAs were not using the new Advance Payment Reporting
        Form (APRF) to report advances after April 1, 2011, as required. MCC implemented the

                                                8
       APRF to serve as a secondary check on the reasonableness of the quarterly reported
       advances.

Technical Release 12 requires the agency to prepare reliable and timely accrual estimates for
grant programs based upon historical data stores. Because MCC is at an interim stage in its
implementation of TR 12 and lacks the in-house data stores, it is relying on the data obtained
from the MCAs and monitoring of this estimation process.

Through the Financial Integrity Task Force, MCC employed a multi-pronged approach to
ensuring data quality that included instructions, standardized reporting, one-on-one training
and consultations, frequently asked questions, quarterly regional conference calls with the MCA
finance teams and fiscal agents, and on-site assistance. MCC sent key staff to conduct hands on
training at selected MCAs in May 2011 and also held multi-day working sessions with MCA
finance teams and fiscal agents in May and June, 2011. Because of what was learned during this
period MCC expanded training efforts by working with procurement personnel, finance and
fiscal agent staff through the fourth quarter.

MCC implemented more extensive quality control procedures at year end to reduce the data
quality risks related to completeness, accuracy and consistency. In the 4th quarter MCC’s
quality control procedures included obtaining MCA data quality certifications, sampling the data
call’s supporting documentation for completeness and accuracy, and a review of each
submission for reasonableness. Because of the herculean efforts of MCC A&F and the
Department of Compact Operations (DCO) and the MCAs our testing of the MCAs’ fourth
quarter data call submissions resulted in a net MCC overstatement of accounts payable of $4
million and an $886 thousand understatement of advances.

Technical Release 12 also requires that the agency assess the cost benefit of the controls over
the data. It is unknown however the total cost of the efforts employed by MCC to ensure the
data quality of the fourth quarter submissions.

Multiple causes exist for the advances, accruals, and retentions data call errors. They include:
        Insufficient guidance early in the year for development of an accrual methodology,
        process, and documentation,

       Inadequate review of data call prior to submission to ensure completeness, accuracy,
       and timeliness,

       Inadequate retention of supporting documentation,

       Lack of engagement of MCA program personnel and other persons with knowledge of
       the current work status,

       Incorrect use of exchange rates,

       Lack of a standardized system of electronic recording and reporting thereby resulting in
       a highly manual process,

       Insufficient MCA policies and procedures to ensure completeness, accuracy, timeliness,
       approvals, and consistency, and

                                               9
        Lack of a robust quality assurance process by MCC.


Also, for the majority of the fiscal year MCC did not have sufficient controls in place and did not
request sufficient documentation from the MCAs to detect errors in data call reporting.

Statement of Federal Financial Accounting Standard Number 1, Accounting for Selected Assets
and Liabilities, states:
    “Advances are cash outlays made by a federal entity to its employees, contractors, grantees,
    or others to cover a part of or all of the recipients’ anticipated expenses or as advance
    payments for the cost of goods and services the entity acquires. Examples include … and cash
    or other assets disbursed under a contract, grant, or cooperative agreement before services
    or goods are provided by the contractor or grantee. ”

GAO Internal Control Standards for the Federal Government, GAO/AIMD-00-21.3.1 (11/90)
states:
    “Control activities occur at all levels and functions of the entity. They include a wide range of
    diverse activities such as approvals, authorizations, verifications, reconciliations,
    performance reviews, maintenance of security, and the creation and maintenance of related
    records which provide evidence of execution of these activities as well as appropriate
    documentation. Control activities may be applied in a computerized information system
    environment or through manual processes.”

    “For an entity to run and control its operations, it must have relevant, reliable, and timely
    communications relating to internal as well as external events.”

    “Control activities help to ensure that all transactions are completely and accurately
    recorded.”

FASAB TR 12 Accrual Estimates for Grant Programs states in paragraph .11 that “preparing
reliable and timely accrual estimates for grant programs must be a joint effort between the
budget, financial, and program offices at each agency. It also provides that some agencies may
not be able to effectively implement the procedures because they have not yet developed the
necessary data stores and/or methods for preparing grant accrual estimates and thus should use
the alternatives outlined in the TR.”

Paragraphs 16-21 of TR 12 relate to preparing accrual estimates for new grant programs or
changes to existing grant programs. “In the absence of sufficient relevant and reliable historical
data on which to base accrual estimates, agencies should prepare estimates based upon the
best available data at the time the estimates are made. Estimates can be based upon historical
data, modeling capabilities or informed opinion, in limited instances.”

The MCA data calls were inconsistently completed with varying degrees of reliability during the
fiscal year. The ability for MCC to rely on the information provided was reduced, thereby,
placing its financial reporting and adjustments to accounts payable and program expenses for
the accrued MCA expenses ranging from $135 million to $276 million at risk for misstatements.




                                                 10
During the year MCC recorded adjustments for new advances of $142 million and liquidation of
FY 2010 and 2011 advances of $123 million based upon the data call information. According to
MCC it is more cost beneficial to record advances as expenses first and use the MCA quarterly
reporting mechanism to adjust the account balances as needed. Throughout most of FY 2011
MCC did not have sufficient quality assurance procedures related to the MCA quarterly data call
to ensure completeness, accuracy, and consistency of the advance data.

The completeness and accuracy of advance amounts reported on the financial statements was a
high risk because MCC was using an unreliable source as a secondary check, and relying on MCA
data call information and insufficient quality assurance throughout the fiscal year. MCC’s
financial statements could have been misstated because of control weaknesses associated with
recording and reporting advances, accruals, and retentions.

Recommendations: We recommend that MCC:
3. Develop an appropriate MCC data store of MCA expense information as required by TR 12.
4. Perform similar data validation employed at year end for each quarter going forward.

5. Prepare an MCC developed estimate for accrued expenses based upon statistical modeling
   or alternative that is based on MCC obtained data.

6. Record advances in accordance with generally accepted accounting principles.
7. Develop and implement a periodic reconciliation process for advances.

8. Develop and implement a quarterly certification for advance transactions processed by the
   MCAs as part of the quarterly data call submission.

9. Modify MCA audit requirements to include testing and reporting of advances transactions.




                                              11
 Schedule B – Significant Deficiencies

III. MCA Required Documentation, Including Audit Reports, Quarterly Disbursement Requests
     and Compact Closure Plans Are Not Submitted, Reviewed, and/or Approved in a Timely
     Manner

 MCC’s business is providing funding, supporting MCA activities, and reporting to others on the
 financial, programmatic and compliance aspects of those activities in order to reduce poverty in
 poor countries through economic growth. To perform these duties properly MCC requires
 various documentation and information from the MCAs. During the audit process we noted that
 audit reports, quarterly disbursement requests and compact closure plans were not always
 submitted, reviewed, and/or approved in compliance with MCC’s own guidelines for various
 reasons.

 Audit Reports
 We reviewed the status of audit reports for the period ended December 31, 2010, which were
 due on March 31, 2011, to determine whether MCC complied with the audit requirements and
 had proper controls in place to ensure timely submission of audit reports.

 Of the 17 MCA audit reports that should have been received by the OIG as of July 2011, our
 analysis revealed the following:

         3 Audit Reports were received within the specified timeframe;
         8 Audit Reports were received late; and
         6 Audit Reports had not yet been received.

 As of September 30, 2011 one draft audit report had still not been received by the Office of the
 Inspector General (OIG) and only seven reports had been finalized by the OIG. Therefore,
 approximately $68 million in project expenditures through December 31, 2010 have not been
 audited (no draft report issued) and final reports have not been issued for approximately $626
 million in project expenditures.

 A timely audit involves the timely engagement of an audit firm by the MCA, an agreed upon
 timeline that ensures that the deliverables are provided within the deadlines, quality
 deliverables from the audit firms, and timely responses from the MCA, and audit firms. MCC
 and the OIG have responsibilities to monitor the audit process, provide technical assistance, and
 hold the various organizations accountable for the timely completion of audits and resolution of
 findings. Because this condition was noted in previous years and in an effort to improve audit
 report timeliness, MCC and the OIG established monthly meetings to discuss audit status and
 delays. Also, MCC has also decided to move toward annual audits for more mature MCAs, which
 is compliant with the compact agreement, in an effort to simplify the contracting and
 organizational review process.

 Further, audit planning documents are routinely reviewed and approved late which directly
 affects the timing of the MCA audits. For example, draft audit reports were due on March 31,
 2011 for the period ended December 31, 2010; however, many audit planning documents were
 not received until February or March 2011 with an average of two months between submission

                                                12
and approval of planning documents by OIG. The MCA audit cannot begin until audit planning
documentation is approved. MCC has instituted a variety of monitoring controls, and most
delays are outside of their control, but MCC is ultimately accountable for ensuring that the funds
are audited. On a positive note, for the FY 2009 expenses that had been audited MCC has
experienced a less than 1% rate for sustained questioned costs.

More can be done to address the root cause of most delays, audit quality. Audit quality issues
that can lead to delays include errors or incomplete audit planning documents; non-inclusion of
required audit steps; and errors in the report.

Quarterly Disbursement Requests
MCAs did not submit Quarterly Disbursement Requests (QDRs) for all funds in accordance with
MCC policy. According to MCC’s Compact Management Policies and Procedures, Quarterly
Disbursement Requests are due no later than 20 days before the beginning of the quarter
(October 1st, January 1st, April 1st, and July 1st). This was previously noted as a prior year audit
finding. We reviewed QDRs for all funds for a sample of 10 MCAs and noted that some MCAs
were repeatedly failing to submit their QDRs by the required date. In our testwork, we noted
that:
        Of the sixteen active compacts required to submit QDRs for the period July 1, 2011 to
        September 30, 2011, three QDRs were submitted late.
        Of the eighteen active compacts required to submit QDRs in December for the period
        January 1, 2011 to March 31, 2011, two were submitted late.
        QDRs for the period April 1, 2011 to June 30, 2011 were all submitted on time.

In several instances we noted that the MCAs cited for untimely QDRs may have sent in a portion
of the required quarterly documentation for MCC review to ensure that it was being prepared
accurately. However, the full package was not received prior to the due date.

Compact Closures
Monitoring MCAs is a key internal control for MCC to ensure the effectiveness and efficiency of
operations including use of the entity’s resources. One of the mechanisms employed by MCC is
the review and approval of the compact closeout. The compact closure plan preparation is an
extensive process that requires the time and effort of a significant number of MCA and MCC
personnel to ensure its completeness and accuracy. The plan usually goes through several
iterations before it is finalized.

MCC has established a standard that Compact Closure Plans (CCPs) be submitted 15 months pre-
close and be finalized 12 months pre-close, which implies a three-month approval and revision
period.

During our testing of five compact closures, we noted that:
        Three MCAs did not submit their CCP to MCC by the deadline established in the MCC
        guidance. The longest delay was 247 days past the due date.
        Similarly, according to MCC guidance CCPs should be approved 12 months prior to the
        compact end date. None of the five compact closure plans were approved within this
        timeframe. One CCP was not approved until 120 days after the compact closed.




                                                13
Office of the Inspector General for the Millennium Challenge Corporation’s Guidelines for
Financial Audits Contracted by the Millennium Challenge Corporation’s Accountable Entities
(Revised August 3, 2007) states:

       §1.5: “MCC standard audit provisions require that the Accountable Entity (hereafter
       referred to as MCA) ensures that an audit is contracted by MCA for itself at least
       annually in accordance with these Guidelines.”

       §2.3: “The OIG must receive the audit report in accordance with the Compact, no later
       than 90 days after the first anniversary of the Entry into Force and no later than 90 days
       after the end of the audited period thereafter, or such other periods as the Parties may
       otherwise agree.”

MCC’s Financial Management Policies and Procedures (FMPP) on Compact Management,
Appendix E States: Appendix E
      “Disbursement requests are due to MCC no later than the 10th day of the last month of
      each quarter. Country POCs are the process managers responsible for ensuring the
      appropriate approvals are received and comprehensive documentation including
      approvals is filed.”

Two versions of MCC’s Guidelines for Closure of Millennium Challenge Compacts were applicable
during the time of the condition:

Version 2.0., effective September 8, 2009, §5.1 states:
        “No later than 15 months prior to the Compact End Date the Accountable Entity will
        submit to MCC for approval a plan for the closure of the Program.”

The revised guidance (DCO-2011-1.1), effective May 9, 2011, §5.2.1 states:
        “No later than 15 months prior to the Compact End Date, the Accountable Entity will
        submit a draft Program Closure Plan to MCC for approval. MCC and the Accountable
        Entity will consult in good faith with a view to reaching agreement upon the Program
        Closure Plan at least 12 months prior to the Compact End Date.”

Late receipt of audit information could negatively impact MCC’s decision-making process. Audit
reports containing outdated information are of limited use and do not allow MCC management
to provide timely guidance to MCAs. Without timely audits of these funds, improper payments
may not be detected and corrected by MCC. Additionally, neither the MCA nor MCC has
established repercussions for late reports.

Untimely submission of QDRs does not provide MCC with timely financial information, including
projected disbursements. If QDRs are submitted late, MCA cash flow may be impeded, or PRFs
may not be processed timely or more work may be required on the part of MCC and/or NBC in
order to process disbursement requests.

Untimely submission and approval of CCPs may not allow for the MCA to fully execute the
agreed-upon closure activities. MCAs could close out with unresolved contracts, uncollected
receivables, and outstanding questioned costs. As a result MCC is required to address the issue,
collect the costs from the government or vendor, or accept the loss.

                                              14
  Recommendations: We recommend that MCC A&F and DCO:

  10. Collaborate with the OIG and provide the MCA auditors with a document discussing the
      issues/errors that have led to delays in processing and clearing the audit plans and audit
      reports in a timely manner.
  11. Provide comprehensive guidance to MCAs regarding the procurement of firms to perform
      the FAS audits with a focus on timeliness and completeness of the audit deliverables and
      potential penalties.
  12. Continue to collaborate with the OIG to improve communications regarding audit status and
      solutions to moving individual audits to completion on a timely basis.
  13. Reiterate the program requirements that QDRs are to be accurate and complete and
      submitted within the required timelines and provide them with information about
      issues/things that cause delays.
  14. Review their current guidelines for submission of CCPs to determine if the timeline is
      reasonable and realistic. In addition, DCO should work closely with MCAs to develop and
      compile a compact closure plan and resolve any outstanding items in advance of compact
      closure.


IV.     Reconciling Fund Balance with Treasury
   The United States Agency for International Development (USAID) administers the Threshold
   Program for MCC, and Phoenix is the accounting system of record. Many of USAID’s cash
   balances at Treasury for individual appropriations are different from cash balances in the
   accounting system for those appropriations. During the review of internal controls, we noted
   that USAID was granted a waiver from Treasury to temporarily post transactions to the suspense
   account. However, USAID has not complied with Treasury’s requirement that transactions be
   taken out of the suspense account and accurately posted within 60 days. Balances in the USAID
   suspense account are significant and are not cleared and recorded to the correct appropriation
   in a timely fashion. USAID’s suspense aging report includes amounts from prior fiscal years.

  The Treasury Financial Manual Preparing FMS 224, Paragraph 3330, states:

          Agencies prepare the monthly FMS 224 based on:
              Vouchers paid or accomplished by [Regional Finance Centers (RFC)];
              Intra‐governmental Payments and Collections (IPAC) transactions accomplished;

                 Cash collections received for deposit on SF 215s [Deposit Ticket]; and

               Electronic payments/deposits such as those processed through the Automated
              Standard Application for Payments (ASAP) System or the Fedwire Deposit System.


          Agencies also should report transactions recorded in their [GL] that are not associated
          with an SF 215, SF 5515 [Debit Voucher], IPAC, or vouchers paid or accomplished by RFCs
          in Section I of the FMS 224 only.

  Paragraph V, Subsection C, Adjustments, of Part 2‐5100, states:


                                                 15
       An agency may not arbitrarily adjust its FBWT account. Only after clearly establishing
       the causes of errors and properly documenting those errors, should an agency adjust its
       FBWT account balance.

USAID cash balances recorded in Phoenix do not tie to balances reported by Treasury. These
differences are caused by prior‐year errors when USAID recorded outlays in a different
appropriation than Treasury did, and by timing differences. The existence of old transactions
that have not been cleared from the suspense account is caused by a lack of monitoring in prior
years and an ongoing difficulty with matching incoming and outgoing suspense transactions.
Untimely reconciliation of balances in the suspense account presents a risk of potential
misstatements to the Fund Balance with Treasury line item.

Recommendation: We recommend that MCC A&F:

15. Continue to follow USAID’s progress toward elimination of cash balance differences
    between USAID and Treasury and timely clearing of suspense account items in order to
    monitor         MCC’s        risk        of          potential        misstatements.




                                              16
                          Independent Auditors’ Report on Compliance

Inspector General
United States Agency for International Development

Board of Directors
Millennium Challenge Corporation

We have audited the Principal Statements and Required Supplementary Information
(hereinafter referred to as the financial statements) of the Millennium Challenge Corporation
(MCC) as of and for the years ended September 30, 2011 and 2010, and have issued our report
thereon dated November 10, 2011. We conducted our audits in accordance with auditing
standards generally accepted in the United States of America; standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States; and Office of Management and Budget (OMB) audit guidance.

The management of MCC is responsible for complying with laws, regulations, contracts, and
grant agreements applicable to MCC. As part of obtaining reasonable assurance about whether
MCC’s financial statements are free of material misstatement, we performed tests of MCC’s
compliance with certain provisions of laws, regulations, contracts, and grant agreements,
noncompliance with which could have a direct and material effect on the determination of the
financial statements amounts, and certain provisions of other laws and regulations specified in
OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended,
including the requirements referred to in the Federal Managers’ Financial Integrity Act of 1982
(FMFIA) We limited our tests of compliance to the provisions described in the preceding
sentence, and we did not test compliance with all laws, regulations, contracts and grant
agreements applicable to MCC. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an
opinion.

The results of our tests of compliance described in the preceding paragraph of this report
disclosed no instances of noncompliance or other matters that are required to be reported
under Government Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of management of the Millennium
Challenge Corporation and its Office of Inspector General, Office of Management and Budget,
and Congress and is not intended to be and should not be used by anyone other than these
specified parties.

Williams, Adley & Company – DC, LLP /s/

Washington, D.C.
November 10, 2011




                                  WILLIAMS, ADLEY & COMPANY-DC, LLP
                        Certified Public Accountants / Management Consultants
    1030 15th Street, NW, Suite 350 W • Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371-9161
                                          www.williamsadley.com
                                                                                 Appendix A


Based upon our review of the FY 2011 Report on Internal Controls and Audit Report # M-000-
011-001-C, we identified 17 recommendations related to FY 2010 and prior. These
recommendations consisted of 14 related to material weaknesses and 3 related to significant
deficiencies. We reviewed and assessed MCC corrective actions for each Notice of Finding and
Recommendations (NFR) and have made the following determinations.

Prior Year Findings:

1. Reporting Advance Payments – Material Weakness
Recommendation: Modify the Payment Request Form (PRF) to specifically identify requests for
advance payments to vendors.

Status: Closed; MCC created an Advance PRF form (APRF) to help distinguish between advance
and expense payments. MCC also updated their policies and procedures to require the use of
an APRF.

2. Reporting Advance Payments – Material Weakness
Recommendation: Provide training to Fiscal Agents and other in-country personnel to explain
how to properly record each line of the PRF based on supporting documents and how MCC
financial statements are affected by MCA activities and transactions.

Status: Closed. Training was provided by MCC.

3. Compiling Accruals ( Proper Reporting period) – Material Weakness
Recommendation: Establish a comprehensive methodology and/or standard process for
obtaining year end accruals which covers all MCAs and funds. Ensure that accruals include
invoiced and rendered services which have not been recorded in the year end trial balance.

Status: Closed; MCC established a methodology for accrual reporting and distributed this
methodology to MCAs in March 2011 as part of the revised data call procedures. However,
there were problems and errors with the process and new recommendations were issued with
the FY 2011 material weakness.

4. Compiling Accruals ( Proper Reporting period) – Material Weakness
Recommendation: Establish consistent communication with NBC and the MCAs for
understanding the process and methodology developed.

Status: Closed

5. Compiling Accruals ( Proper Reporting period) – Material Weakness
Recommendation: Perform quality control procedures over amounts obtained and recorded.
Review the amounts posted for reasonableness, accuracy, and completeness.

Status: Closed; MCC modified policies and procedures in this area; however, they were not
effectively implemented. We noted a material weakness with this process in the FY 2011
internal control report.

6. Untimely Performance of MCA Audits – Material Weakness




                                                18
                                                                                    Appendix A


Recommendation: Implement a process for coordinating with MCAs, audit firms, and the OIG to
ensure all parties are adequately informed of the progress of all audits and to ensure that MCA
audits are completed in accordance with the compact.

Status: Closed; MCC has implemented a process; however, the audits are still untimely.
Additional recommendations were made in the FY 2011 significant deficiency.

7. Untimely Performance of MCA Audits - Material Weakness
Recommendation: Establish and implement a process to ensure that MCAs prepare and make
available for audit the status of advances to contractors, retention balances and data necessary
for MCC to properly report its accruals.

Status: Open

8. Improper and Untimely Quarterly Reporting – Material Weakness
Recommendation: Establish and implement a process to ensure that all personnel responsible
for QFRs to guide them to submit accurately prepared and properly approved QFRs and
Disbursement Requests in a timely manner.

Status: Closed: MCC implemented a process that has reduced the number of untimely QFRs and
Disbursement Requests. However, we noted additional untimely submissions in FY 2011. See
the new FY 2011 significant deficiency and recommendations in this area.

9. Improper and Untimely Quarterly Reporting - Material Weakness
Recommendation: Establish and implement a process to ensure that funds are periodically
reviewed to determine if MCAs should submit final QFRs to record deobligations for funds no
longer needed.

Status: Closed

10. Inadequate Oversight of 609(g) Funded Transactions – Material Weakness

Recommendation: Coordinate with appropriate management levels to implement a formal
process for administering 609(g) funds in all countries not managed by either MCC or an MCA.

Status: Closed; New policies and procedures were finalized and implemented in March 2011.

11. Inadequate Oversight of 609(g) Funded Transactions - Material Weakness
Recommendation: Monitor on a quarterly basis the cumulative obligations and disbursements
of all countries that have received 609(g) funds and communicate with the MCAs to determine if
there is still an immediate need to maintain excess 609(g) funds that have not been disbursed.
The input from MCC Department of Compact Operations must be documented. Deobligate
609(g) funds that are no longer considered an immediate need to the MCA/Partnering Country.

Status: Closed

12. Inadequate Oversight of 609(g) Funded Transactions - Material Weakness
Recommendation: Strengthen the CPS Signature Card process to include a MCC authorizing
signature, effective and termination dates, and to include an annual or other periodic review


                                              19
                                                                                    Appendix A


process between MCC, its financial service provider, and the MCAs to ensure that signature
cards are kept on file for only active users of its CPS payment requesting system.

Status: Open; We noted that the new CPS policies and procedures include a revised signature
card. This revised signature card includes an MCC authorizing signature, effective dates, and
termination dates. However, MCC has not developed a periodic review process for CPS
Signature cards to ensure they are for active users only. Therefore we determine that this
recommendation has been partially implemented.

13. Inadequate Processing of Closed Programs - Material Weakness
Recommendation: Develop policies and procedures for Program Closure of Compacts that have
been suspended or terminated to ensure that programs, activities, and assets are properly
accounted for, and final disposition is reported to MCC.

Status: Closed

14. Inadequate Processing of Closed Programs - Material Weakness
Recommendation: Establish guidelines for Fiscal Accountability Directors, Fiscal Agents, as well
as personnel in the Division of Finance and MCC’s financial services provider to make them fully
aware of any restrictions to process payments made during a program or compact close-out
period.

Status: Closed

15. Reconciling Fund Balance with Treasury - Significant Deficiency
Recommendation: Continue to follow USAID’s progress toward elimination of cash balance
differences between USAID and Treasury and timely clearing of suspense account items in order
to monitor MCC’s risk of potential misstatements.

Status: Closed; MCC has followed USAID’s progress. However, a significant deficiency has been
reissued in FY 2011 because USAID continues to have challenges in this area.

16. Control over Financial Reporting - Significant Deficiency
Recommendation: Strengthen quality reviews over financial statements to validate that
information presented is accurate, complete, and complies with accounting standards and
reporting guidance.

Status: Closed; MCC developed and documented revised policies and procedures in this area,
but they have not been effectively implemented. We noted this issue in a new material
weakness and recommendations on financial reporting in the FY 2011 audit report.

17. Control over Financial Reporting - Significant Deficiency
Recommendation: Establish quality control procedures to document during the review process
any discrepancies, errors, and other anomalies that have occurred to provide an audit trail of
issues that may require on-top adjustments.

Status: Closed




                                              20
                                                                                    Appendix B




Management Comments and Our Evaluation

We received and evaluated MCC’s management comments to the recommendations made in
this report. Based upon MCC’s comments, we acknowledge that management decisions have
been reached on all of the recommendations. MCC should provide the Office of Inspector
General with a timeline to address the recommendations and report to the Office of Inspector
General when final action has been taken on the recommendations.

The following is a brief summary of MCC’s management comments on the recommendations
included in this report and our evaluation of those comments.

Recommendation 1 (Material Weakness 1)
MCC management concurs with this recommendation.

Auditor Evaluation:
We conclude that MCC management has adequately addressed this recommendation.

Recommendation 2 (Material Weakness 1)
MCC management concurs with this recommendation.

Auditor Evaluation:
We conclude that MCC management has adequately addressed this recommendation.

Recommendations 3 - 9 (Material Weakness 2)
MCC concurs with the conditions and recommendations, whereas MCC, in determining the
appropriate handling of MCA advances, developed a methodology that records MCA
disbursements as expenses and, on a quarterly basis, requests information to determine an
accurate adjustment for the Advances balance presented in its financial statements. When
developing this methodology, MCC evaluated several alternatives and determined that the
adoption of this approach resulted in a more accurate way of compiling data used to prepare
quarterly and annual financial statements.

We agree with the auditor documentation which notes that MCA information improved from
the 1st to the 3rd quarters of FY2011. MCC’s expanded quality control procedures significantly
reduced the risks related to completeness and accuracy. The results of the fourth quarter
provide the strongest evidence that the MCA submissions’ completeness and accuracy were
continually improved.

Auditor Evaluation:
MCC management provided one response to recommendations 3 – 9. We conclude that MCC
management has adequately addressed this recommendation.

Recommendations 10 - 14 (Significant Deficiency 1)
MCC will adopt the recommendations as stated.

                                              21
                                                                                 Appendix B




Auditor Evaluation:
We conclude that MCC management has adequately addressed this recommendation.

Recommendation 15 (Significant Deficiency 2)
MCC concurs with the recommendation to follow USAID’s progress toward elimination of cash
balance differences between USAID and Treasury and timely clearing of suspense account items
in order to monitor MCC’s risk of potential misstatements.

Auditor Evaluation:
We conclude that MCC management has adequately addressed this recommendation.




                                             22
                                                                                 Appendix C




November 10, 2011

Mr. Alvin Brown
Assistant Inspector General
Millennium Challenge Corporation

Dear Mr. Brown:

MCC has reviewed the draft audit report received November 9, 2011. In response to audit findings
characterized as material weaknesses and significant deficiencies, as well as the associated
recommendations, MCC has the following comments:

Material Weakness: MCC’s Financial Reporting Process Needs Improvement

Recommendations from the auditors:
   1. Develop and document a financial reporting process that reduces the likelihood of errors,
      inconsistencies, and inaccuracies and results in efficiencies and effectiveness, consistency, and
      accuracy of financial data.
   2. Enhance the quality control process to detect errors or improper closeout of accounts through
      additional check totals, training and involvement of additional A&F staff members.

Response from MCC:
MCC concurs with recommendations #1 and #2.

Material Weakness: Controls over MCC Accrued Expenses, Retentions and Advances Need
Improvement

Recommendations from the auditors:
   3. Develop an appropriate MCC data store of MCA expense information as required by TR-12.
   4. In the interim, perform similar data validation employed at year end for each quarter going
      forward.
   5. Prepare an MCC developed estimate for accrued expenses based upon statistical modeling or
      alternative that is based on MCC obtained data.
   6. Record advances in accordance with general accepted accounting principles.
   7. Develop and implement a periodic reconciliation process for advances.
   8. Develop and implement a quarterly certification for advance transactions processed by the MCAs
      as part of the quarterly data call submission.
   9. Modify MCA audit requirements to include testing and reporting of advances transactions.

Response from MCC:
MCC concurs with recommendations #3 - #9.

Significant Deficiency: MCA Required Documentation, Including Audit Reports, Quarterly
Disbursement Requests and Compact Closure Plans Are Not Submitted, Reviewed, and/or Approved In
A Timely Manner

                                                    23
Page 2 of 3



Recommendations from the auditors:

   10. Collaborate with the OIG and provide the MCA auditors with a document discussing the
       issues/errors that have led to delays in processing and clearing the audit plans and audit reports in a
       timely manner.
   11. Provide comprehensive guidance to MCAs regarding the procurement of firms to perform the FAS
       audits with a focus on timeliness and completeness of the audit deliverables and potential penalties.
   12. Continue to collaborate with the OIG to improve communications regarding audit status and
       solutions to moving individual audits to completion on a timely basis.
   13. Reiterate the program requirements that QDRs are to be accurate and complete and submitted
       within the required timelines and provide them with information about issues/things that cause
       delays.
   14. Review their current guidelines for submission of CCPs to determine if the timeline is reasonable
       and realistic. In addition, DCO should work closely with MCAs to develop and compile a compact
       closure plan and resolve any outstanding items in advance of compact closure.

Response from MCC:
MCC concurs with recommendations #10 - #14.

Significant Deficiency: Reconciling Fund Balance with Treasury

Recommendation from the auditors:

   15. Continue to follow USAID’s progress toward elimination of cash balance differences
       between USAID and Treasury and timely clearing of suspense account items in order to monitor
       MCC’s risk of potential misstatements.

Response from MCC:
MCC concurs with recommendation #15.

MCC will be addressing each recommendation as part of a comprehensive corrective action plan beginning
in the first quarter of FY 2012 with the intent to develop and implement necessary changes as soon as
practicable.



                                                 Sincerely,


                                                 MILLENNIUM CHALLENGE CORPORATION


                                                 By:             /s/
                                                         Chantale Wong
                                                         Vice President, Administration and Finance and
                                                         Chief Financial Officer
                                                         Millennium Challenge Corporation




                                                  24
FINANCIAL SECTION
The Principal Financial Statements have been prepared to report on the financial position and the
results of operations of the Millennium Challenge Corporation (MCC). The Statements have
been prepared from the books and records of the Agency in accordance with formats prescribed
by the Office of Management and Budget (OMB) in OMB Circular A-136, Financial Reporting
Requirements. The statements should be read with the understanding that they are for a
component of the U.S. Government, a sovereign entity. The Agency has no authority to pay
liabilities not covered by budgetary resources. Liquidation of such liabilities requires enactment
of an appropriation. Comparative data for FY 2010 have been included. MCC is presenting the
following financial statements and additional information:
Balance Sheets
Statements of Budgetary Resources
Statements of Net Cost
    Statements of Changes in Net Position
    Notes to Financial Statements
    Other Accompanying Information
    Audit Reports on the Millennium Challenge Corporation’s Financial Statements, Internal
     Controls, and Compliance for the Period Ending September 30, 2011 and 2010




                                               25
BALANCE SHEETS

                                                                  FY 2011           FY 2010
 Assets
 Intra-Governmental
 Fund Balance with Treasury (Note 2)                            $ 5,875,161,025   $ 6,554,088,712
 Advances – Federal (Note 5)                                         5,861,151         8,778,900
 Total Intra-Governmental                                        5,881,022,176     6,562,867,612
 Accounts Receivable (Note 3)                                           65,098            49,409
 General Property, Plant, and Equipment (Note 4)                     4,612,820         5,857,213
 Advances – Public (Note 5)                                        192,187,111       182,343,189
 Total Assets                                                   $ 6,077,887,205   $ 6,751,117,423


 Liabilities
 Intra-Governmental
 Accounts Payable – Federal (Note 1F)                             $ 10,290,179        $ 5,055,266
 Contributions and Payroll Taxes Payable                               527,333           476,667
 Total Intra-Governmental                                           10,817,512         5,531,933
 Federal Employee and Veteran Benefits Payable                          12,604            12,443
 Accounts Payable – Public (Note 1F)                               290,366,872       208,104,353
 Accrued Funded Liabilities                                          8,531,046         9,279,041
 Total Liabilities                                               $ 309,728,034     $ 222,927,770


 Net Position
 Unexpended Appropriations – Other Funds                        $ 5,763,269,299   $ 6,522,071,077
 Cumulative Results of Operations – Other Funds                      4,889,872         6,118,576
 Total Net Position                                             $ 5,768,159,171   $ 6,528,189,653


 Total Liabilities and Net Position                             $ 6,077,887,205   $ 6,751,117,423




The notes are an integral part of these financial statements.




                                                     26
STATEMENTS OF BUDGETARY RESOURCES

                                                                  FY 2011           FY 2010
 Budgetary Resources
 Unobligated Balance – Beginning of Period                       $ 944,204,120     $ 787,102,593
 Recoveries of Prior Years Obligations                               4,152,213         4,045,794
 Budget Authority:
 Appropriations (Note 1C)                                          900,000,000     1,105,000,000
 Non expenditure Transfers, Net, Anticipated and Actual                      0        (2,377,922)
 Permanently Not Available                                          (1,800,000)      (50,000,000)
 Total Budgetary Resources                                      $ 1,846,556,333   $ 1,843,770,465


 Status of Budgetary Resources
 Obligations Incurred
   Direct                                                        $ 581,848,132     $ 899,566,345
 Unobligated Balance Available                                     671,745,269       451,137,424
 Unobligated Balance Not Available                                 592,962,932       493,066,696
 Total Status of Budgetary Resources                            $ 1,846,556,333   $ 1,843,770,465


 Change in Obligated Balance
 Obligated Balance, Net – as of October 1, 2010
 Unpaid Obligations, Brought Forward, October 1                 $ 5,609,507,905   $ 5,868,196,304
 Obligations Incurred                                              581,848,132       899,566,345
 Gross Outlays                                                  (1,577,749,645)   (1,154,208,950)
 Recoveries of Prior Year Unpaid Obligations, Actual                (4,152,213)       (4,045,794)
 Obligated Balance, Net – End of Period
 Unpaid obligations                                             $ 4,609,454,179   $ 5,609,507,905
 Net Outlays
 Gross Outlays                                                  $ 1,577,749,645   $ 1,154,208,950




The notes are an integral part of these financial statements.




                                                     27
STATEMENTS OF NET COSTS



                         Program                                  FY 2011           FY 2010
 Program Costs (Note 7)
 Compact
 Gross Costs                                                    $ 1,449,285,114   $ 1,020,176,345
 Less: Earned Revenue                                                        0                 0
 Net Program Costs                                               1,449,285,114     1,020,176,345
 609 (g) Programs
 Gross Costs                                                        28,825,091        19,551,450
 Less: Earned Revenue                                                        0                 0
 Net Program Costs                                                  28,825,091        19,551,450
 614 (g) Programs
 Gross Costs                                                            50,614                 0
 Less: Earned Revenue                                                        0                 0
 Net Program Costs                                                      50,614                 0
 Threshold Programs
 Gross Costs                                                        49,002,236        58,985,525
 Less: Earned Revenue                                                        0                 0
 Net Program Costs                                                  49,002,236        58,985,525
 Due Diligence Programs
 Gross Costs                                                        37,628,706        28,555,929
 Less: Earned Revenue                                                        0                 0
 Net Program Costs                                                  37,628,706        28,555,929
 Audit
 Gross Costs                                                         4,087,460         3,517,852
 Less: Earned Revenue                                                        0                 0
 Net Program Costs                                                   4,087,460         3,517,852
 Administrative
 Gross Costs                                                        91,811,012        95,580,731
 Less: Earned Revenue                                                        0                 0
 Net Program Costs                                                  91,811,012        95,580,731
 Program Costs – Net of All Programs                            $ 1,660,690,233   $ 1,226,367,832
 Net Costs of Operations                                        $ 1,660,690,233   $ 1,226,367,832




The notes are an integral part of these financial statements.



                                                     28
STATEMENTS OF CHANGES IN NET POSITION



                                                                  FY 2011           FY 2010
 Cumulative Results of Operations
 Beginning Balances                                                 $ 6,118,576       $ 4,949,121
 Adjustments                                                                 0                 0
 Beginning Balance, as Adjusted                                      6,118,576         4,949,121
 Budgetary Financing Sources
 Appropriations Used                                             1,657,001,778     1,224,912,387
 Other Financing Sources
 Donations and Forfeitures of Property (Note 1P)                       236,486           269,514
 Imputed Financing                                                   2,223,265         2,355,386
 Total Financing Sources                                         1,659,461,529     1,227,537,287
 Net Cost of Operations                                         (1,660,690,233)   (1,226,367,832)
 Net Change                                                         (1,228,704)        1,169,455
 Cumulative Results of Operations                                   $ 4,889,872       $ 6,118,576


 Unexpended Appropriations
 Beginning Balance                                              $ 6,522,071,077   $ 6,694,361,386
 Adjustments                                                                 0                 0
 Correction of errors                                                        0                 0
 Beginning Balance, as Adjusted                                  6,522,071,077     6,694,361,386
 Budgetary Financing Sources
 Appropriations Received                                         $ 900,000,000    $ 1,105,000,000
 Appropriations Transferred In/Out                                           0        (2,377,922)
 Other adjustments                                                  (1,800,000)      (50,000,000)
 Appropriations Used                                            (1,657,001,778)   (1,224,912,387)
 Total Budgetary Financing Sources                                (758,801,778)     (172,290,309)
 Total Unexpended Appropriations                                 5,763,269,299    $ 6,522,071,077
 Net Position                                                   $ 5,768,159,171   $ 6,528,189,653




The notes are an integral part of these financial statements.




                                                     29
NOTES TO FINANCIAL STATEMENTS (AS OF SEPTEMBER 30, 2011)

Note 1—Summary of Significant Accounting Policies

A. Basis of Presentation
       The accompanying financial statements have been prepared to report the financial
       position, results of operations and budgetary resources for MCC as required by OMB
       Circular A-136, Financial Reporting Requirements, in form and content and in
       accordance with Section 613 of the Millennium Challenge Act of 2003, as amended, and
       the Government Corporation Control Act (31 U.S.C. §9106). These financial statements
       have been prepared from MCC’s books and records and are presented in accordance with
       the applicable requirements of OMB, the Secretary of the Treasury, and the Government
       Management and Reform Act of 1994.

       MCC’s accounting policies conform to and are consistent with generally accepted
       accounting principles (GAAP) for the Federal Government, as promulgated by OMB and
       prescribed by the Federal Accounting Standards Advisory Board (FASAB). The FASAB
       has been recognized by the American Institute of Certified Public Accountants (AICPA)
       as the official accounting standard setting authority for the Federal government.

       MCC’s principle financial statements are:

               Balance Sheet;
               Statement of Net Cost;
               Statement of Budgetary Resources; and
               Statement of Changes in Net Position.

       Financial statement footnotes are also included and considered an integral part of the
       financial statements.

B. Reporting Entity
      MCC was formed in January 2004 pursuant to the Millennium Challenge Act of 2003, as
      amended, (P.L. 108-199). MCC’s mission is to reduce poverty by supporting sustainable
      economic growth in developing countries that create and maintain sound policy
      environments. Assistance is intended to provide economic growth and alleviate extreme
      poverty, strengthen good governance, encourage economic freedom, and promote
      investments in people.

C. Budgets and Budgetary Accounting
      MCC’s programs and activities are funded through no-year appropriations. Such funds
      are available for obligation without fiscal year limitation and remain available until
      expended. OMB apportions MCC program and administrative funds on an annual basis
      pursuant to statutory limitations in the annual appropriations bill. OMB segregates the


                                               30
       apportionment of funds for administrative and audit oversight, compact programs, due
       diligence programs, 609(g) programs and threshold programs. MCC does not have any
       earmarked funds. Because of the no-year status of MCC appropriations, unobligated
       administrative, audit, and due diligence funds are not returned to the Treasury; however,
       unobligated balances as of September 30 for these three categories of funds are
       transferred to the program fund category for future obligation until expended.

D. Basis of Accounting
       Financial transactions are recorded on accrual and budgetary bases in accordance with
       pertinent Federal accounting and financial reporting requirements. Under the accrual
       method of accounting, financing sources are recognized when used and expenses are
       recognized when incurred, without regard to receipt or payment of cash. Budgetary
       accounting facilitates MCC’s compliance with legal constraints and controls over the use
       of Federal funds. The accompanying Balance Sheet, Statement of Net Cost, and
       Statement of Changes in Net Position are prepared on the accrual basis. The Statement of
       Budgetary Resources is prepared in accordance with budgetary accounting rules.

E. Fund Balance with Treasury
      MCC does not maintain cash in commercial bank accounts. Rather, MCC’s funds are
      maintained by the U.S. Treasury. The U.S. Treasury processes all cash receipts and
      disbursements for MCC. The fund balances with Treasury represent no-year funds,
      which are maintained in appropriated funds that are available to pay current and future
      commitments.

F. Accounts Payable
       MCC records as liabilities all amounts due to others as a direct result of transactions or
       events that have occurred. Accounts payable represent amounts due to Federal and non-
       Federal entities for goods and services received by MCC, but not paid at the end of the
       accounting period. Accounts payable reported at the end of Fiscal Year 2011 were $290
       million (non-Federal) and $10.3 million (Federal) and at the end of Fiscal Year 2010
       were $208 million (non-Federal) and $5.1 million (Federal).

G. Actuarial FECA Liability
       The Federal Employees’ Compensation Act (FECA) provides income and medical cost
       protection to covered Federal civilian employees injured on the job, employees who have
       incurred a work-related occupational disease, and beneficiaries of employees whose
       deaths are attributable to a job-related injury or occupational disease.

       Claims incurred for benefits for MCC employees under FECA are administered by the
       Department of Labor (DOL) and later billed to MCC. MCC’s actuarial liability for
       workers’ compensation includes any costs incurred but unbilled as of year-end, as
       calculated by DOL, and is not funded by current appropriations.




                                                31
       MCC incurred $3 thousand in FECA liabilities during Fiscal Year 2011 and $0 in Fiscal
       Year 2010.

H. Accrued Annual Leave
       The value of employees’ unused annual leave at the end of each fiscal quarter is accrued
       as a liability. At the end of each fiscal quarter, the balance in the accrued annual leave
       account is adjusted to reflect current pay rates and leave balances. To the extent that
       current or prior year appropriations are not available to fund annual leave earned but not
       taken, funding will be obtained from future financing sources. Sick leave and other types
       of non-vested leave are expensed when used and, in accordance with Federal
       requirements, no accruals are recorded for unused sick leave.

I. Net Position
        Net position is composed of unexpended appropriations and cumulative results of
        operations. Unexpended appropriations are funds appropriated by Congress to MCC that
        are still available for expenditure at the end of the fiscal year. Cumulative results of
        operations represent the net differences between financing sources and expenses since
        MCC’s inception.

J. Financing Sources
       Per note 1C, MCC funds its program and operating expenses through no-year
       appropriations. Appropriations are recognized as an accrual-based financing source at
       the time they are used to pay program or administrative expenses, except for expenses to
       be funded by future appropriations.

K. Retirement Benefits
       MCC’s employees participate in either the Civil Service Retirement System (CSRS) or
       the Federal Employees Retirement System (FERS). FERS was established by Public
       Law 99-335. Pursuant to this law, most U.S. Government employees hired after
       December 31, 1983, are covered by FERS and Social Security. Federal employees hired
       prior to January 1, 1984, were allowed to elect whether they desired to participate in
       FERS (with Social Security coverage) or remain in CSRS. For employees covered by
       CSRS, MCC contributes seven percent of their gross pay toward their retirement benefits.
       For those employees covered by FERS, MCC contributes 11 percent of their gross pay
       toward retirement. Employees are also allowed to participate in the Federal Thrift
       Savings Plan (TSP). For employees under FERS, MCC contributes an automatic one
       percent of basic pay to TSP and matches employee contributions up to an additional four
       percent of pay, for a maximum MCC contribution amounting to five percent of pay.
       Employees under CSRS may participate in the TSP but will not receive either MCC’s
       automatic or matching contributions.

       Federal employee benefits costs paid by the Office of Personnel Management (OPM) and
       imputed by MCC are reported on the Statement of Net Cost.




                                               32
L. Use of Estimates
       The preparation of financial statements requires management to make estimates and
       assumptions that affect the reported amounts of assets and liabilities, the disclosure of
       contingent assets and liabilities at the date of the financial statements, and the reported
       amounts of financing sources and expenses during the reporting period. Actual results
       could differ from such estimates.

       During Fiscal Year 2011 the Federal Accounting Standards Advisory Board, issued
       Technical Release 12 (TR12) Accrual Estimates for Grant Programs and MCC has
       adopted this methodology for the recording of MCC Compact Grant Accrual Programs.
       TR12 provides methodologies for both mature grant programs and new grant programs
       where sufficient relevant and reliable historical data is not yet available. TR 12 also
       provides guidance on acceptable sources of documentation for grant accrual estimates,
       including the monitoring and validation of estimates. In the absence of sufficient relevant
       and reliable historical data on which to base accrual estimates, MCC prepares estimates
       based upon the best available data at the time the estimates are made.

M. Contingencies
      MCC can be a party to various routine administrative proceedings, legal actions, and
      claims brought by or against it, including threatened or pending litigation involving labor
      relations claims, some of which may ultimately result in settlements or decisions against
      MCC. In the opinion of MCC’s management and legal counsel, there are no proceedings,
      actions, or claims outstanding or threatened that would materially impact MCC’s
      financial statements.

N. Judgment Fund
       Certain legal matters to which MCC can be named as a party may be administered and, in
       some instances, litigated and paid by other Federal agencies. In general, amounts paid in
       excess of $2,500 for Federal Tort Claims Act settlements or awards pertaining to these
       litigations are funded from a special appropriation administered by the Department of the
       Treasury, called the Judgment Fund. Although the ultimate disposition of any potential
       Judgment Fund proceedings cannot be determined, management expects that any liability
       or expense that might ensue would not be material to MCC’s financial statements.

O. Custodial Liabilities
       Under current policy and procedures, MCC disburses funds for Compact and pre-
       Compact projects and activities upon the presentation of a valid invoice. However, under
       certain conditions, MCC will fund countries by advancing funds on an as-needed basis to
       cover basic needs. Such funds provided to the countries are required to be deposited in
       interest-bearing accounts, if legally feasible, until disbursed. The interest earned on these
       accounts is remitted to MCC by the MCA and is then returned to the Treasury’s general
       fund. MCC received and deposited $999 thousand and $377 thousand in interest
       remittances as of September 30, 2011 and 2010, respectively.




                                                 33
P. Donated Services
      MCC may on occasion utilize donated services from other Federal agencies, individuals
      and private firms in the course of business operations. The approximate fair market value
      of donated services for Fiscal Year 2011 was $236 thousand and Fiscal Year 2010 was
      $270 thousand.

Q. Transfers with Other Federal Agencies
      MCC is a party to allocation transfers with another Federal agency as a transferring
      entity. Allocation transfers are legal delegations by one department of its authority to
      obligate budget authority and outlay funds to another department. A separate fund
      account (allocation account) is created in the U.S. Treasury as a subset of the parent fund
      account for tracking and reporting purposes. All allocation transfers of balances are
      credited to this account, and subsequent obligations and outlays that are incurred by the
      child entity are charged to this allocation account, as they execute the delegated activity
      on behalf of the parent entity. Generally, all financial activity related to these allocation
      transfers (e.g., budget authority, obligations, outlays) is reported in the financial
      statements of the parent entity, from which the underlying legislative authority,
      appropriations, apportionments are derived.

       MCC allocates funds, as the parent, to USAID. In Fiscal Year 2011 and Fiscal Year
       2010, MCC transferred budgetary authority to USAID of $0 and $25 million,
       respectively, to administer Threshold and Compact programs. USAID receives these
       allocations as transfers-in and reports quarterly to MCC as the child. MCC also transfers
       an administrative fee to USAID for the purposes of administering the Threshold and
       Compact programs.




                                                34
Note 2—Fund Balance with Treasury
      The U.S. Treasury accounts for all U.S. Government cash on an overall consolidated
      basis. MCC is appropriated “general” funds only and maintains theses balances in the
      Fund Balance with Treasury. The general fund line items on the Balance Sheet for
      September 30, 2011 and 2010 consisted of the amounts presented in Exhibit 13. The
      status of the general fund balances is summarized by obligated, unobligated and Non-
      Budgetary fund balances in Exhibit 14.

                       Exhibit 13: Fund Balance with Treasury as of September 30

                                            September 30, 2011        September 30, 2010
                                              (in thousands)            (in thousands)
           Fund Balances
           General Funds                            $ 5,875,161                $ 6,554,089
           Total                                    $ 5,875,161                $ 6,554,089


                   Exhibit 14: Status of Fund Balance with Treasury as of September 30

                                            September 30, 2011        September 30, 2010
                                              (in thousands)            (in thousands)
           Status of Fund Balance with Treasury
           Unobligated Balance
                 Available                              $ 671,745               $ 451,137
                 Unavailable                              592,963                 493,067
           Obligated Balance                        $ 4,609,454                $ 5,609,508
           Non-Budgetary FBWT                                999                         377
           Total                                    $ 5,875,161                $ 6,554,089


Note 3—Accounts Receivable, Net
      Accounts receivable reflect overpayments of payroll, travel and other MCC current and
      former employee expenses. It also reflects substantiated disallowed MCA expenditures.
      MCC does not record an allowance for doubtful accounts as these expenses are deemed
      wholly collectible. Total receivables as of the end of Fiscal Year 2011 and Fiscal Year
      2010 were approximately $65 thousand and $49 thousand, respectively.

Note 4—General Property, Plant and Equipment (PP&E), Net
      MCC’s PP&E costs are the associated leasehold improvements made to its leased office
      space as well as general equipment costs. The book value of all general PP&E for Fiscal
      Year 2011 and Fiscal Year 2010 was $4.6 million and $5.9 million, respectively.

      MCC has made significant leasehold improvements to its office space and amortizes the
      improvements based on the in-service (invoice) date of the improvement. Amortization



                                                   35
      on that in-service improvement is calculated on a quarterly basis. The cost of these
      leasehold improvements for both Fiscal Years 2011 and 2010 was $10.9 million.
      Accumulated amortization was $6.4 million and $5.2 million, respectively. The useful
      life of the improvements is based on the lease terms: ten (10) years for the Bowen
      building lease and eight (8) years for the City Center building lease.

      MCC’s capitalization threshold for all other general property, plant and equipment is an
      original cost of $50,000 or more and an estimated useful life of five or more years.
      Accumulated depreciation was $48 thousand for Fiscal Year 2011 and $20 thousand for
      Fiscal Year 2010.

      MCC’s software capitalization threshold defines a capitalized asset that has an original
      cost of $200,000 or more and an estimated useful life of five years or more and the
      information technology (IT) infrastructure capitalization threshold defines a capitalized
      asset as having an original cost of $200,000 or more and an estimated useful life of three
      years or more. These thresholds reduce MCC’s administrative costs associated with
      accounting for PP&E, and result in increased operational efficiency. MCC does not own
      its software or IT infrastructure; therefore, no depreciation has been calculated.

Note 5—Advances
      Advances reflect amounts provided to compact countries and other Federal agencies in
      accordance with formal compacts or inter-agency agreements. Advances are liquidated
      and recorded as expenses upon receipt of expenditure reports from the recipients. MCC
      reported $198.0 million ($5.9 million Federal and $192.1 million non-federal) and $191.1
      million ($8.8 million Federal and $182.3 million non-federal) in advances as of
      September 30, 2011 and 2010, respectively.

Note 6—Leases
      MCC leases office space in two adjacent locations in Washington, D.C. These operating
      leases are on ten-year (Bowen Building) and eight-year (City Center Building) lease
      terms that terminate on May 25 and May 26, 2015, respectively. The Bowen building
      lease increases approximately one percent each year of the lease term. The City Center
      building lease increases at a fixed level every three years until the termination of the
      lease.

      MCC also has short term leases for 1 corporate vehicle (through June 28, 2015) and for
      18 copier machines (through January 31, 2012) utilized in both buildings. The future
      lease payments due are depicted in Exhibit 15 below.

                                  Exhibit 15: Operating Leases

                              Future Lease Payments Due (in dollars)
       Fiscal Year                                                         City          Total
                                              Bowen                    Center



                                               36
          FY 2012                                                                    5,669,249                      1,942,376                     7,611,625
          FY 2013                                                                    5,725,941                      1,942,376                     7,668,317
          FY 2014                                                                    5,783,201                      1,995,229                     7,778,430
          FY 2015                                                                    5,841,033                      1,995,229                     7,836,262
          Total Future Lease Payments                                         $23,019,424                          $7,875,210                   $30,894,634
                                                 Future Lease Payments Due (in dollars)
                    Fiscal Year                                                                 MCC                                    MCC                Total
                                                                        Vehicle                                  Copiers
          FY 2012                                                                               10,980                 55,821                        66,801
          FY 2013                                                                               10,980                                               10,980
          FY 2014                                                                               10,980                                               10,980
          FY 2015                                                                                8,235                                                   8,235
          Total Future Lease Payments                                                          $41,175                $55,821                        96,996



         Note 7—Intragovernmental Costs and Exchange Revenue
               The Statement of Net Cost reports the MCC’s gross cost less earned revenues to arrive at
               net cost of operations. Costs have been illustrated by MCC funded programs. Exhibit
               16 shows the value of exchange transactions between MCC and other Federal entities, as
               well as non-Federal entities. Intra-governmental costs relate to transactions between the
               MCC and other Federal entities. Public costs relate to transactions between the MCC and
               non-Federal entities. MCC does not have any exchange revenues.

                                Exhibit 16: Intra-governmental Costs and Exchange Revenue (in thousands)
                                                                                                                      Administrative
                                                                               Due Diligence




                                                                                                                                              FY 2011             FY 2010
                                                            Threshold
                      Program




                                                                                                                                                Total               Total
                                        609(g)



                                                 614(g)




                                                                                                         Audit




                                                                                                                                                 (in                 (in
                                                                                                                                             thousands)          thousands)
Intra-
                     4,518            3,531       0       12,681              5,153                 3,871           25,135                     54,889             42,228
Governmental
Public          1,444,767             25,294     51       36,321           32,476                     216           66,676                   1,605,801           1,184,140
Total -
Program         1,449,285             28,825     51       49,002           37,629                   4,087           91,811                   1,660,690           1,226,368

         Note 8—Undelivered Orders at the End of the Period
               Exhibit 17 presents Undelivered Orders, paid and unpaid, as of September 30, 2011 and
               2010.




                                                                         37
                                         Exhibit 17: Undelivered Orders

                        Undelivered Orders             2011                     2010
                       Administrative                  $ 35,653,558             $ 28,539,653

                       Audit                                  840,492              1,031,296

                       609(g)                            34,747,822               37,167,213

                       614(g)                                 223,767                      0

                       Due Diligence                     70,954,703               65,060,507

                       Program                        4,297,756,596            5,334,343,971

                       Threshold                         58,595,317              111,923,479

                       Total                        $ 4,498,772,255           $ 5,578,066,116




Note 9— Differences between the SBR and the Budget US Government
       MCC ensures that the information reported in its books is reflected within the Budget of
       the U.S. Government. Since MCC’s financial statements are published before the
       President’s Budget, this reconciliation is based on the Statement of Budgetary Resources
       column for Fiscal Year 2010 and the Fiscal Year 2010 actual data reported in the Fiscal
       Year 2012 budget submission. Fiscal Year 2011 actual data will be published within the
       2013 Budget of the United States to be published in February 2012. No material
       differences were noted.



Note 10—Reconciliation of Net Cost of Operations to Budget
       Exhibit 18 reconciles the resources available to MCC to finance operations with the net
       cost of operating MCC’s programs. Some operating costs, such as depreciation, do not
       require direct financing sources. This exhibit illustrates the reconciliation of Net Cost of
       Operations to Budget for the comparative FY 2011 and FY 2010 fiscal years.

                          Exhibit 18: Reconciliation of Net Cost of Operations to Budget

     Resources Used to Finance                                      FY 2011 Reported
            Activities                                               Program Costs
 Budgetary Resources Obligated
Obligations Incurred                         $ 581,848,132      Gross Costs                     $1,660,690,233

Recoveries of prior year unpaid                 (4,152,213)
obligations




                                                       38
Other financing resources                     2,459,751
Total resources used to finance            580,155,670
activities
Total resources used to finance items     1,079,290,170   Less: Earned Revenue               -
not part of the net cost of operations
Total components of net cost of               1,244,393
operations that will not require or
generate resources
Net Cost of Operations                   $1,660,690,233   Net Cost of Operations   $1,660,690,233



             FY 2010
     Resources Used to Finance                                    FY 2010
            Activities                                         Program Costs
Budgetary Resources Obligated
Obligations Incurred                      $899,566,345    Gross Costs              $1,226,367,832

Recoveries of prior year unpaid             (4,045,794)
obligations
Other financing resources                     2,624,899
Total resources used to finance            898,145,451
activities
Total resources used to finance items      326,986,011    Less: Earned Revenue               -
not part of the net cost of operations
Total components of net cost of               1,236,370
operations that will not require or
generate resources
Net Cost of Operations                   $1,226,367,832   Net Cost of Operations   $1,226,367,832




                                                   39
U.S. Agency for International Development
        Office of Inspector General
For the Millennium Challenge Corporation
       1401 H Street, NW, Suite 770
          Washington, DC 20005
            Tel: (202) 216-6960
            Fax: (202) 216-6984
            www.usaid.gov/oig
